No. 19-832

IN THE

iMprente Court of tije ainiteb ii§,tates5
APPLE INC.,
Petitioner,
v.
VIRNETX INC., LEIDOS, INC.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

BRIEF OF HIGH TECH INVENTORS
ALLIANCE, HP INC., AND LENOVO
(UNITED STATES) INC. AS AMICI CURIAE
IN SUPPORT OF THE PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,911 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 13, 2020.

( 2- /
Colin Casey ogan
Wilson-Epes Printing Co., Inc.

